HHS/OIG, Audit -"Review Of Medicare Reimbursement For Outpatient Cardiac Rehabilitation Services For Calendar Year 2001,"(A-10-03-00009)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review Of Medicare Reimbursement For Outpatient Cardiac Rehabilitation Services For Calendar Year 2001," (A-10-03-00009)
November 7, 2003
Complete Text of Report is available
in PDF format (1.38 mb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our this review was to determine whether Medicare properly
reimbursed Salem Hospital (the Hospital) for outpatient cardiac rehabilitation services.  We determined that the
Hospital met the Medicare cardiac rehabilitation coverage requirements for direct physician supervision although a written
policy describing the physicians roles and responsibilities was not established.  Further, we found that the Hospital
did not provide outpatient cardiac rehabilitation services incident to a Hospital physicians professional services.  In
addition, from our specific claims review for a non-statistical sample of 10 beneficiaries who received 107 services
during Calendar Year 2001, we determined that the Hospital received from Medicare approximately $183, for which the diagnosis
used to establish the patients eligibility for the services was not supported by medical record documentation, or which
were otherwise unallowable.  We attributed these questionable services to weaknesses in the Hospitals internal
controls and oversight procedures.  We recommended that the Hospital (1) develop written policies and procedures
regarding physician supervision; (2) work with its Medicare fiscal intermediary regarding the incident to requirement;
(3) work with its Medicare fiscal intermediary to establish the amount of repayment liability, estimated to be as much
as $183; and (4) bill for initial patient evaluation and orientation services only when performed by a physician.  The
Hospital concurred with our findings and recommendations.